<html>
<title> - FISCAL YEAR 2009 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FROM THE U.S. PACIFIC COMMAND AND U.S. FORCES KOREA</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]





                         [H.A.S.C. No. 110-133]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2009

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

                        BUDGET REQUEST FROM THE

                        U.S. PACIFIC COMMAND AND

                           U.S. FORCES KOREA

                               __________

                              HEARING HELD

                             MARCH 12, 2008

                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                  U.S. GOVERNMENT PRINTING OFFICE
45-824                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
SILVESTRE REYES, Texas               ROSCOE G. BARTLETT, Maryland
VIC SNYDER, Arkansas                 HOWARD P. ``BUCK'' McKEON, 
ADAM SMITH, Washington                   California
LORETTA SANCHEZ, California          MAC THORNBERRY, Texas
MIKE McINTYRE, North Carolina        WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
ROBERT A. BRADY, Pennsylvania        W. TODD AKIN, Missouri
ROBERT ANDREWS, New Jersey           J. RANDY FORBES, Virginia
SUSAN A. DAVIS, California           JEFF MILLER, Florida
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                FRANK A. LoBIONDO, New Jersey
JIM MARSHALL, Georgia                TOM COLE, Oklahoma
MADELEINE Z. BORDALLO, Guam          ROB BISHOP, Utah
MARK E. UDALL, Colorado              MICHAEL TURNER, Ohio
DAN BOREN, Oklahoma                  JOHN KLINE, Minnesota
BRAD ELLSWORTH, Indiana              PHIL GINGREY, Georgia
NANCY BOYDA, Kansas                  MIKE ROGERS, Alabama
PATRICK J. MURPHY, Pennsylvania      TRENT FRANKS, Arizona
HANK JOHNSON, Georgia                BILL SHUSTER, Pennsylvania
CAROL SHEA-PORTER, New Hampshire     THELMA DRAKE, Virginia
JOE COURTNEY, Connecticut            CATHY McMORRIS RODGERS, Washington
DAVID LOEBSACK, Iowa                 K. MICHAEL CONAWAY, Texas
KIRSTEN E. GILLIBRAND, New York      GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania             DOUG LAMBORN, Colorado
GABRIELLE GIFFORDS, Arizona          ROB WITTMAN, Virginia
NIKI TSONGAS, Massachusetts
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida

                    Erin C. Conaton, Staff Director
                Julie Unmacht, Professional Staff Member
              Aileen Alexander, Professional Staff Member
                    Caterina Dutto, Staff Assistant












                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Wednesday, March 12, 2008, Fiscal Year 2009 National Defense 
  Authorization Act--Budget Request from the U.S. Pacific Command 
  and U.S. Forces Korea..........................................     1

Appendix:

Wednesday, March 12, 2008........................................    37
                              ----------                              

                       WEDNESDAY, MARCH 12, 2008
  FISCAL YEAR 2009 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
          FROM THE U.S. PACIFIC COMMAND AND U.S. FORCES KOREA
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Bell, Gen. Burwell B. (B.B.), III, USA, Commander, United Nations 
  Command; Commander, Republic of Korea-United States Combined 
  Forces Command; and Commander, U.S. Forces Korea...............     7
Keating, Adm. Timothy J., USN, Commander, U.S. Pacific Command...     4

                                APPENDIX

Prepared Statements:

    Bell, Gen. Burwell B. (B.B.), III............................    83
    Keating, Adm. Timothy J......................................    41

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Cummings.................................................   127
    Mr. Forbes...................................................   127
    Mrs. Gillibrand..............................................   127
    Mr. Sestak...................................................   127
    Mr. Skelton..................................................   127

Questions Submitted by Members Post Hearing:

    Mr. Reyes....................................................   131
 
FISCAL YEAR 2009 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
          FROM THE U.S. PACIFIC COMMAND AND U.S. FORCES KOREA

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Wednesday, March 12, 2008.
    The committee met, pursuant to call, at 1:17 p.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Today the committee will address the posture 
of the United States Pacific Command, or PACOM, as it is known, 
and one of its major sub-unified commands, U.S. Forces Korea.
    Our witnesses are Admiral Timothy Keating, commander of 
PACOM, and General B.B. Burwell Bell, commander of the United 
States forces in Korea.
    It is great to see both of you. We appreciate your being 
with us and your testimony.
    Admiral Keating, you were recently quoted as saying the 
readiness of our forces is affected by combat operations in 
Afghanistan and Iraq. You went on to add, we are at a higher 
risk state. And, Admiral, I suspect you were engaging in an 
understatement when you said that PACOM has only had to adjust 
its strategic plans a little bit since about 30,000 PACOM 
troops are deployed to the Central Command.
    This is just one signal that we are facing increased 
strategic risks due to our commitments in Iraq. There are a 
number of potential flash points in the world that could be 
called on to deal with, and there are some clear examples in 
the Asia Pacific region, spanning from the Korean peninsula and 
the Taiwan Strait of South and Southeast Asia.
    I would like to point out that in the last 31 years we have 
had 12 military engagements involving American forces. And if 
the future is anything like the past----
    It appears that our involvement in Iraq has preoccupied us 
away from the Asia Pacific changing strategic landscape at a 
time when we should be proactively engaged on multiple fronts. 
We must be able to pursue opportunities for security 
cooperation with allies and partners in the region, ensure that 
our force posture will allow us to deter or confront any 
security challenge that might emerge.
    This is concerning when China just announced another 
double-digit increase in its military budget. The recent annual 
report on China's military power details China's continuing 
military modernization, including missile buildup across from 
Taiwan.
    Moreover, there is still much we don't know regarding North 
Korea's nuclear weapons capabilities. Tensions continue to 
flare across the East China Sea. Indonesia, the Philippines, 
continue to struggle against terrorism, and throughout much of 
Southeast Asia, the threat of terrorism and violence and 
instability remains extraordinarily high. And while we have 
been preoccupied in the Middle East, China and others have been 
expanding their influence in Latin America, Africa, as well as 
elsewhere around the globe.
    So we must maintain our focus on the Asia Pacific region 
and ensure that we get our level of strategic risk back within 
acceptable limits. Our own actions may well influence the 
choices and actions of others. I am encouraged by recent 
Department of Defense agreements involving the U.S.-China 
defense hotline, research in Chinese archives on Korean War 
MIAs and POWs, and U.S.-China dialogue on nuclear policy and 
strategy.
    There has also been success in addressing terrorism in the 
Philippines, and some policy movement over the last year within 
the six-party process of denuclearization of the Korean 
peninsula.
    So I hope you will update us on the good work that you and 
your troops and your personnel are doing in the Asia Pacific 
area.
    As we begin our testimony, I turn to my friend, the ranking 
member, Duncan Hunter.
    I might point out, we will be having a series of votes as 
we have just finished a series and we undoubtedly will have it. 
We will do our very, very best to get through this as best we 
can. So let's proceed.
    Mr. Hunter.

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Hunter. Thank you, Mr. Chairman. And thanks for having 
this hearing today. Very important hearing.
    Today we are going to receive testimony from two gentlemen 
who have traveled long distances to be with us. And Admiral 
Keating, we welcome your appearance before the committee for 
the first time in your current role as commander of the U.S. 
Pacific Command.
    And I would also like to take this opportunity to commend 
PACOM and the sailors of the USS Lake Erie, USS Decatur and USS 
Russell for last month's successful intercept of a disabled 
National Reconnaissance Office (NRO) satellite. Good work.
    And General Bell, welcome back as a commander for U.S. 
Forces Korea.
    Gentlemen, your testimony today on the posture of the U.S. 
military in your respective areas of responsibility and 
assessment of current and potential security challenges in the 
Asia Pacific region will help inform the national security 
policy direction and budgetary decisions this committee will 
make in the coming months. So we look forward to your 
testimony.
    Today's hearing is important and gives our members an 
opportunity to pause and consider how new developments and 
potential security challenges in the Asia Pacific region could 
impact the disposition of America's forward deployed forces, 
our strategic partnerships in the region and how the U.S. 
invests in its military capabilities.
    There are a few developments in your respective areas of 
responsibility that are important to note. First, the Asia 
Pacific region continues to see strong economic growth, 
particularly in China, Japan and India. Second, 2007 marked a 
period of political transition in the region with Japan, 
Australia, South Korea and Thailand all electing new leaders. 
And, lastly, relations among countries in the region and with 
the U.S. continue to evolve.
    Admiral Keating, I am interested in your assessment of 
these economic and geopolitical changes in Asia and the 
potential impact on America's defense posture in the region.
    And General Bell, I would also appreciate your thoughts 
regarding any impacts you have observed on the U.S.-South Korea 
alliance and on the future outlook for U.S. military forces on 
the peninsula.
    There are several key strategic security issues that 
require the United States to maintain a watchful eye. First, 
regionally, the rise of China. Fueled by its economic engine, 
it is now a key driver in defining the geopolitical and 
security landscape of Asia. Beyond the region, China's double-
digit defense spending increases, which are funding a massive 
military modernization program. We have a continued lack of 
military transparency regarding China's intentions and 
capabilities, limited disclosure regarding defense decision-
making and unexplained actions, such as the January 2007 anti-
satellite (ASAT) test. And all those things continue to concern 
us.
    So I am interested in learning how PACOM takes into account 
China's expanding military capabilities in its strategic 
calculus and contingency planning. And specifically, I would 
like you to address China's anti-access area denial 
capabilities, very key to American planning.
    The continued deployment of advanced cruise missiles, such 
as the supersonic SS-N-27B Sizzler and China's growing counter-
space and cyber-capabilities. These capabilities, if employed, 
can hamper our operational effectiveness.
    Further, the growing size of China's attack submarine fleet 
is a continuing concern, particularly in light of the fact that 
only 65 percent of PACOM's presence requirements for attack 
submarines are being met with a U.S. force of what is today 52 
submarines, but which will fall over the long term to only 41 
attack submarines.
    And, you know, I looked the other day at the production 
figures. China is outstripping us in production by more than 
three to one. And if you add the boats that they are acquiring, 
the kilo purchases from Russia, it looks like it is five or six 
to one in terms of building their force as opposed to ours.
    Regional terrorism, particularly in Southeast Asia, 
continues to impact PACOM's area of responsibility. Anti-
American Islamist terrorist groups with ties to al Qa'ida are 
active in the southern Philippines and have carried out 
bombings, killings and other destabilizing activities. 
Additionally, Thailand faces an increasing Muslim insurgency in 
the south that further complicates the regional security 
situation.
    So I look forward to a discussion on PACOM's ongoing 
efforts to support our allies in this critical front against 
terrorism, particularly in terms of counterterrorism assistance 
and building partner nation capacity.
    Also, there is progress toward a denuclearized Korean 
peninsula and ongoing disablement However, much work remains. 
We can't forget that North Korea has a capacity to produce and 
test nuclear weapons and delivery systems and a track record of 
proliferating ballistic missiles and missile technology.
    Additionally, North Korea retains a significant 
conventional capability with massed forces near the 
demilitarized zone (DMZ) and a potential missile arsenal.
    So General Bell, I am interested in your assessment of the 
progress of the six-party talks and also your concerns about 
threats, particularly missile threats, in your area of 
responsibility (AOR).
    Of course, these evolving developments and challenges to 
U.S. security are not all inclusive, but they reinforce a need 
for this committee to be both near- and far-sighted in our 
deliberations and decision making regarding the Asia Pacific 
region.
    So, gentlemen, thanks for being with us. And please carry 
our enormous gratitude to all the men and women who wear the 
uniform under your command. We are very grateful.
    And lastly, General Bell, if you could tell us also about 
the movement of the American forces in Korea. I am particularly 
interested in how much have we moved out from underneath that 
artillery fan from the north and what the time schedules are 
for permanent establishment in the new bases.
    Thank you.
    Mr. Chairman, thanks for this very timely hearing and I 
look forward to the testimony.
    The Chairman. Mr. Hunter, thank you very much.
    We have about six minutes now from the end of the vote.
    Admiral Keating, maybe we can squeeze you before that, then 
come back for the general.
    Admiral Keating.

  STATEMENT OF ADM. TIMOTHY J. KEATING, USN, COMMANDER, U.S. 
                        PACIFIC COMMAND

    Admiral Keating. Thank you, Chairman.
    Congressman Hunter and distinguished members of the 
committee, two points I would like to make before I begin my 
remarks, Mr. Chairman.
    Number one is to represent the heartfelt appreciation of 
everyone in the United States Pacific Command to general B.B. 
Bell and his wife Katie as they will retire this summer. And I 
would like to make it a matter of record as to how much we 
appreciate his service for our country over nearly four 
decades.
    Second, I would like to introduce our senior enlisted 
leader, Mr. Chairman. You have met him before. Chief Master 
Sergeant Jim Roy, who represents all of the wonderful enlisted 
men and women who serve our country in the Pacific.
    I am grateful for the opportunity to testify today and to 
represent the 350,000 men and women in uniform in the United 
States Pacific Command.
    Our overall impression of our area of responsibility is one 
of optimism and one of hope. Our region is stable. As we say as 
often as we can, writ large, ``The guns are silent in the 
Pacific.''
    There are areas of tension and of course Burma is an area 
of turmoil, but overall we find that throughout the region 
folks are very interested in stability and peace and the 
economic engine that you mentioned in churning and it is 
running on all cylinders.
    Several points that you mentioned and I would like to 
emphasize. There have been many elections in our area of 
responsibility. Amongst in Japan, South Korea--B.B. will talk 
to that--Australia and Thailand. In each case, I have been able 
to visit those countries and I am assured that the strategy of 
the new administrations tends to support that which we would 
like to see as United States Pacific Command, and to speak 
larger, that of the United States of America.
    I think that there is a very interesting mindset developing 
amongst the leaders, military and governmental, throughout the 
region, and that is one of collaboration. We have a broad set 
of strong bilateral relations that have been longstanding in 
many cases and are a matter of formal treaty in five cases. But 
I think that there is a measurable and very beneficial sense of 
multilateral engagement at the military and diplomatic level 
that is very helpful.
    It gives us an opportunity from the United States Pacific 
Command to lead from within. We do not have to be the only 
advocate for many programs or systems or policies. By 
encouraging multilateralism, countries like Indonesia, Malaysia 
and the Philippines can combine to enhance maritime security in 
their region and we can influence that in a more indirect but 
still very positive and beneficial way. I think it leads to 
quantifiable decreases in the threat from Islamic extremism and 
violent extremism.
    Congressman Hunter, you mentioned this. In the Philippines, 
we have 500 special forces of the United States Army who are 
deployed in support of the armed forces of the Philippines. It 
is important for me to emphasize, their role is support, not 
kinetic military activity. We are training the trainers there 
in the Philippines. And consequently, the armed forces of the 
Philippines have been able to do a very commendable job of 
reducing the threat of violent extremism in central and 
southern Philippines.
    Progress, too, in Indonesia. In the area of maritime 
security, in the area of information sharing and in the areas 
of counterterrorism, we have been able to influence Indonesia's 
behavior in a very important way. This is a nation with 210 
million moderate Muslims. It is very important that we get our 
message right in working with them.
    Vehicles that we use to pass this message along include 
humanitarian assistance and disaster relief. We have been able 
to deploy the United States Hospital Ship Mercy two years ago. 
She is going again this summer. Last year, we took the USS 
Peleliu, a gray hull, amphibious ship, took most of the marines 
off, replaced them with doctors and dentists and engineers, not 
all military, a number of civilian agencies were also 
represented, and the Peleliu saw over 30,000 civilians who were 
given first-class medical care and dental care and over 1,000 
major surgeries were performed.
    So these outreach programs of ours are very effective and, 
we think, further reinforce this multilateral approach to the 
problem, the challenges that still exist out there.
    B.B. will address and is more qualified to address the 
progress being made in the six-party talks. That said, we are 
in fairly frequent dialogue with Ambassador Hill and we are 
optimistic. Very, very cautiously optimistic, but optimistic 
nonetheless about progress that we can make on the six-party 
talks to lead to a nuclear-free peninsula and, hopefully, peace 
on the peninsula.
    Challenges remain in our area of responsibility. Political 
conditions in Burma and Fiji are not optimum. We hope for a 
return to democratic institutions there soon. I was able to 
visit Thailand recently and saw firsthand the leaders of that 
country, political and military, as a result of their freely 
elected change in leadership there.
    You mentioned, both of you, the People's Republic of China. 
I visited twice. I would be happy to----
    The Chairman. We need to go vote, Admiral. Excuse me for 
interrupting. We will take up in just a moment.
    Mr. Hunter. Admiral, you didn't quite make it, did you?
    Admiral Keating. Six minutes. Not quite.
    I will resume on China when you come back, sir.
    [Recess.]
    The Chairman. The meeting will resume.
    I might point out that pursuant to the previous 
announcement, we will begin our questioning in this particular 
hearing in reverse order. And those that are of lesser 
seniority I know will take heed.
    Admiral, proceed.
    Admiral Keating. A couple of minutes on the People's 
Republic of China, Mr. Chairman.
    I have been able to visit China twice in the year that we 
have been at Pacific Command. I think I would characterize our 
relationship as uneven and a cause of some concern, but not 
worry.
    Congressman Hunter mentioned a couple of areas that I will 
discuss briefly and then I will certainly of course entertain 
questions.
    Anti-access and area denial weapons are a cause of concern. 
We have expressed our concern to the Chinese. We asked them to 
explain to us their intentions, and they choose not to. It gets 
to the difference between transparency and intent. Transparency 
we don't think is sufficient. It is easy enough to see what 
they have, the weapons they are fielding, the systems that they 
are building and the training that they are conducting. When we 
ask them the reasons why they would want to develop area denial 
weapons, that seems to us inconsistent with China's stated goal 
of a peaceful rise and harmonious integration.
    We don't get much in the way of a discourse. So the saw 
isn't cutting both ways. Some of those surface-to-surface and 
surface-to-air weapons you mentioned, Congressman Hunter, we 
are watching very carefully. As they field these systems, a 
number of them are being positioned across the Strait of 
Taiwan. We expressed our concern to the Chinese. They counter 
with their concern over our potential arms sales to Taiwan. We 
try to extract ourselves from the tactical discussion and just 
tell them we are interested in peace and stability throughout 
the entire region, including the Strait of Taiwan.
    So we advocate continued engagement with the People's 
Republic of China. We don't think there is anything to be 
gained by trying to cordon them off or fence them off into a 
corner. That said, we think there has to be more reciprocity 
and a better understanding of their intentions before we are 
going to make the progress that we think is important.
    We want to keep it in as much a non-confrontational basis 
as we can. A small footnote. While I was in China the second 
time, in each of the meetings in which I was fortunate enough 
in which to participate, I asked for a phone number of the guy 
with whom I was speaking. I said, just a simple thing. I see 
you have a phone on your desk. Maybe you can give me your phone 
number, and that way I can call and thank you for the 
hospitality you have demonstrated. And if there should be some 
area that doesn't make much sense to us at Pacific Command, I 
could call you and ask for an explanation. I got no phone 
numbers.
    We are still working on it, but that to me is kind of 
symptomatic of the Chinese reluctance to engage across the 
spectrum of opportunities that are there, and we are going to 
continue to push as hard as we can to get them to open up and 
to be more cooperative and collaborative partners with us and 
all other countries in the region.
    I would close, Mr. Chairman, by emphasizing our four 
priorities in the Pacific Command. I am happy to address 
questions should they be of interest to you. That is our 
warfighting readiness, our forward presence and force posture, 
the importance we attach to regional engagement, and last but 
most important, the quality of life for all of those young men 
and women who serve our country. For that quality of life 
support that you give us, we are grateful. We appreciate your 
support.
    I would be happy to take any questions, Mr. Chairman. Thank 
you.
    [The prepared statement of Admiral Keating can be found in 
the Appendix on page 41.]
    The Chairman. Thank you very much.
    General Bell, a special word of thanks for your service. 
This in all probability will be your last appearance before the 
committee. You are a superb soldier and a great American. We 
thank you.
    General Bell.

 STATEMENT OF GEN. BURWELL B. (B.B.) BELL III, USA, COMMANDER, 
  UNITED NATIONS COMMAND; COMMANDER, REPUBLIC OF KOREA-UNITED 
  STATES COMBINED FORCES COMMAND; AND COMMANDER, U.S. FORCES 
                             KOREA

    General Bell. Thank you, Mr. Chairman. I appreciate that.
    Congressman Hunter, distinguished members of the committee, 
I appreciate the opportunity to appear before you today.
    Your support for our alliance with South Korea in an area 
of the world which is of vital interest to the United States is 
indeed greatly appreciated, as is your commitment to our 
service members who are over there serving on the Korean 
peninsula 8,000 miles from here.
    Mr. Chairman, for the record, I would like to submit my 
posture statement.
    The Chairman. Without objection.
    General Bell. Thank you, sir.
    On February 25, just last month, Lee Myung-bak was 
inaugurated as the President of the Republic of Korea, elected 
in a landslide victory. In his inaugural address before 
international heads of states, diplomats, a bunch of 
dignitaries, and 45,000 Korean citizens who were gathered 
outside there with him, he singled out the United States and 
spoke eloquently about us.
    In singling us out, he said, and I would just like to quote 
quickly, in front of all these heads of states, I might add, 
and he did not single them out. He singled out the United 
States, he said, ``We will work to develop and further 
strengthen traditional friendly relations with the United 
States into a future-oriented partnership. Based on the deep 
mutual trust that exists between the two peoples, we will also 
strengthen our strategic alliance with the United States.''
    Lee Myung-bak spoke of a partnership that he wanted to have 
with us that would be renewed. He said that the Republic of 
Korea is entering into an extremely positive era wherein it is 
my estimation that the South Koreans strongly desire to 
reinvigorate the alliance that they have with us. In fact, in 
recent State Department public polling done by a very competent 
outfit, 75 percent of South Koreans viewed American military 
presence on the peninsula to be important to their national 
security and they wanted us to stay there.
    In fact, oddly enough, 68 percent of those same people 
polled, in looking at the mutual defense treaty that we have 
with the Republic of Korea and postulating a resolution of the 
North Korean issue, stated that even if the North Korea issue 
were resolved, they still wanted the United States to stay on 
the Korean peninsula.
    It is my strongest recommendation that the United States 
recognize that there has been a sea-change in the focus of the 
Republic of Korea and that we seize the moment and extend a 
reciprocating welcome hand to one of our most steadfast and 
long-term allies.
    Today the Republic of Korea is a very modern, first-world 
nation, of course rising from third-world stagnation to an 
economic powerhouse. It is the 11th largest economy in the 
world today. South Korea is bidding to become one of the top 10 
economies. In fact, that is a policy goal of theirs.
    Korea is strategically located on the East Asian mainland 
at the regional nexus of an economically advancing China, 
resurgent Russia and an economically powerful Japan. 
Illustrative of this, Seoul, Korea, the capital of Korea, is 
100 miles closer to Beijing than it is to Tokyo. I cannot 
overstate the strategic importance of a long-term alliance with 
the Republic of Korea to help ensure continued peace and 
stability in Northeast Asia, and I think it is of vital 
interest to us.
    Turning to North Korea real quick, today North Korea 
remains the single most dangerous threat to regional security 
in East Asia. With the fourth largest military in the world, 
North Korea continues to train and ready itself for potential 
war. North Korea employs a military first policy in their 
economy while depriving its citizens of basic sustenance.
    North Korea focuses proportionately enormous energy on 
developing weapons of mass destruction and it has worked hard 
to develop a very sophisticated missile capability. Its past 
record of proliferation coupled with its recent nuclear weapons 
and missile development activities are a matter of great 
concern to all of us.
    The six-party talks process is the most viable path to 
achieve denuclearization in North Korea and I remain very 
hopeful that the North Koreans will continue to demonstrate 
good faith in executing the agreement. Until this full 
denuclearization is achieved, however, progress in lowering the 
risk to regional and even global peace and stability will be a 
bit problematic.
    Meanwhile, in working with South Korea to modernize and 
transform our alliance, we are on the threshold of transferring 
operational control of South Korean military forces in 
potential wartime from the U.S. Combined Forces Command 
headquarters, which I lead, to the South Korean military 
itself. This will take place in 2012 and this operational 
control (OPCON) transfer will realize the final step in 
sovereign self-reliance for the government of South Korea with 
the United States remaining, I hope, a trusted ally, fully 
committing to fighting side-by-side should that be necessary in 
the future.
    Ladies and gentlemen, I will conclude my opening remarks by 
reiterating that Korea is located at the geographical and 
geopolitical nexus of Northeast Asia. Global economic 
prosperity, including our own, is immensely dependent on 
continued peace and economic enterprise with our trading 
partners in that area of the world.
    My strongest recommendation is that the United States 
approach our alliance with South Korea from a long-term 
strategic perspective. Next month, President Lee Myung-bak will 
visit the United States and Washington, DC. We are indeed the 
first country that he will visit after assuming his presidency. 
I hope that Congress will embrace this very friendly, pro-U.S. 
and visionary South Korean leader. He is extending a welcoming 
hand of friendship to us, and I think that we best be no less 
forthcoming and seize this opportunity.
    In conclusion, again, it is my best judgment that our 
alliance with U.S. forces stationed in South Korea is of vital 
importance to us and that it should be a centerpiece of our 
foreign and our security policy throughout the 21st century and 
beyond, regardless of any future resolution of the North Korean 
issue.
    Thank you, sir, and I look forward to your questions.
    [The prepared statement of General Bell can be found in the 
Appendix on page 83.]
    The Chairman. Thank you very much.
    It may be a little difficult to call on those in the first 
and later the second row in the correct order, so please bear 
with me.
    Mr. Sestak.
    Mr. Sestak. Thank you, Mr. Chairman.
    Admiral, one quick question on China. I was curious if any 
damage assessment has been done after Mr. Bergersen was 
arrested for espionage? He was a specialist in the United 
States Command, Control, Communications, Computers, 
Intelligence, Surveillance and Reconnaissance (C4ISR) systems. 
And whether you have been able to see any damage assessment 
from that, since it was given to China?
    Admiral Keating. I have not seen it, Mr. Congressman. It is 
underway, but I have seen no results. Nor am I aware, perhaps 
more to the point, of----
    Mr. Sestak. But one is being conducted?
    Admiral Keating. It is my understanding. It is not being 
done, as you will understand, by Pacific Command.
    Mr. Sestak. Your testimony really goes into the C4ISR area 
so much, I was curious. I didn't mean to ask that question, but 
when I saw your testimony----
    General, can I ask you a question, and it goes to you, 
Admiral, also. I am taken with your report that we can meet--we 
are ready to execute our operational plan if called upon out 
there. And with my question, there is not a question we have, 
in my mind, the best military in the world, ever, today. But 
can it do what is required? Can it meet the timelines laid out 
in 5027, knowing that 60 percent of the Army's equipment is in 
Iraq, knowing that our troops don't come together as a cohesive 
unit in America until just before they deploy to Iraq, and 
knowing that there has been no training in armor or any 
artillery for a couple of years?
    I know all about the 600,000. So my question comes, if you 
are--can they meet the timelines? And it would really take some 
explanation if they could. And that is just a yes or no. And 
second, if you still feel comfortable about it, we used to 
justify our Army, and still do, based upon not just capability 
but threat scenarios. And the Army, as you well know, General, 
is well-justified upon two major regional contingencies. If you 
don't need them for that, the three or four divisions that has 
always been required, do we need them now, if you are okay?
    General Bell. We cannot meet the timelines, as I currently 
desire them to be met.
    Mr. Sestak. Could I ask a question, then, on that one? What 
is the risk to our 27,000 troops there, then?
    General Bell. I would judge the risk to be moderate due to 
our ability to meet the timelines. I have done a lot of work on 
that, Congressman, to come to conclusions.
    I would counter myself by reminding myself that the South 
Korean army is exceptional. Over 500,000----
    Mr. Sestak. Would you accept, then, that we don't need them 
in the operational plan any longer, those divisions?
    General Bell. Not at all.
    Mr. Sestak. Why?
    General Bell. What I am saying is that without our force, 
the war-gaming that I have done means that the war will take 
longer to prosecute. We will have the same outcome, success, 
with American forces engaged to the level which I would prefer. 
We get the job done quicker and more efficiently with less 
casualties.
    Mr. Sestak. All right.
    Admiral, you have been over to China and you mentioned 
about the phone. And in 2004, we have a hotline now at the 
White House with China, and in 2004 there was an offer to do 
one between the Department of Defense (DOD) and the Ministry of 
Defense (MOD) over there, and I think they have come forward 
recently, saying they would like to.
    What gives you the confidence, though?--a two-part 
question. What did you find out about their intentions? 
Everybody wants to know what is their intentions. And more to 
the point, what makes you think they will pick up the phone 
when they really didn't do it for the carrier visit, they 
really didn't do it for the refueling of the minesweepers, and 
they didn't do it for the ASAT?
    Admiral Keating. I don't know that they will pick up the 
phone, Congressman. And their declaration of intent is one of--
extracting from them some declaration of intent is one of our 
primary goals is our primary goals in our dealing with the 
People's Republic of China.
    Mr. Sestak. Were you able to get anything out there of any 
intent while you were talking to them?
    Admiral Keating. Not much, but more than I got the first 
time, Congressman, so in all of two visits, the second was more 
productive and more candid and slightly more forthcoming.
    Mr. Sestak. One last question. Last year, I asked I think 
it was Admiral Fallon, sir, our submarines that you put in at 
Guam, we lose half of the time we could use them out there as a 
ready force because they have to come to Hawaii or San Diego to 
do their maintenance, about placing a dry dock there for them. 
They are ready, instead of just having four, you know how it 
works much better than I do. I did not know if there had been 
any thought of that, so that they are there all the time. 
Because we lose, I understand, as much as 30 to 40 percent of 
our submarine time out there because of the requirement to come 
back.
    Admiral Keating. I am unaware of any plan to put a dry dock 
in Guam, Congressman----
    The Chairman. Thank the gentleman.
    Admiral Keating [continuing]. But I will check. I don't 
think we do.
    [The information referred to can be found in the Appendix 
beginning on page 127.]
    The Chairman. Have you fully answered his question?
    Admiral Keating. I have, sir.
    The Chairman. Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here, for your service.
    I enjoyed the opportunity--unfortunate as it is that we 
have to break and interrupt these hearings for votes and so 
forth, it does afford some of us an opportunity to chat. I 
enjoyed very much the chat while the vote was going on.
    A couple of questions. Part of that chatting, General Bell, 
we talked very, very briefly about your proposal to make the 
tours in Korea for American forces accompanied tours. I served 
a little bit of time in Korea. My wife served an unaccompanied 
tour in Korea. My son has served an unaccompanied tour in 
Korea. So on first blush, it just seems like a mighty fine idea 
to me.
    But clearly there are costs and implications. Could you 
take my time, or as much of it as you may need, to just talk 
about your proposal and how you would see that unfolding and 
its costs and implications?
    General Bell. Thank you, Congressman.
    I may get gallowed here, because I could go on for hours, 
but I will try to be brief.
    My son was born on the East-West German border, 12 
kilometers from two Soviet divisions, both armed with nuclear 
weapons, and 98 other Warsaw Pact divisions. And my nation 
aggressively and proudly invited my family there to join me, 
and thus he was born there. We had command sponsorship at the 
height of the Cold War.
    I take that experience to Korea in the year 2008 and I look 
at a modern, first-world country with marvelous infrastructure, 
one of the greatest economies in the world, and I ask myself--
and a North Korea military which is no match for the Soviet 
military in the Cold War--and I ask myself, why are we 
contributing to these operational tempo (OPTEMPO) and personnel 
tempo (PERSTEMPO) rates by continuing to have 90 percent of my 
force doing 1-year unaccompanied tours only to go back to the 
States and 4 or 5 months later deploy back to Iraq or 
Afghanistan, and then turn around and come back to the States 
after Iraq or Afghanistan. And, sure enough, four or five 
months later go to Korea, when indeed with that kind of policy 
we are sending a continued message to our South Korean ally and 
regional partners in that area of the world of temporary 
commitment. Because a one-year rotational opportunity speaks to 
temporary commitment, as though it were a war zone.
    And, Congressman, it is not. I mean, I am not lecturing 
you, sir, but it is not a war zone. It hasn't been for 55 
years. This is a modern, first-world country.
    As we move south of Seoul, out of harm's way, into 
sanctuary locations, it seems to me in this modern, first-world 
country of such strategic importance to the United States that 
we need to put a stop to this continued PERSTEMPO problem that 
we are creating. We need to send a message to our allies over 
there of continued commitment, and we need to attend to the 
quality of life of our service members by keeping them with 
their families as long as possible.
    So I am a strong proponent of normal family accompanied 
tours. I want a policy decision soon. And I would like to 
implement it over a 10-year period. We can't do it overnight. 
It would add about 17,000 family members to our location over 
there, which I don't think is a very large number.
    So I am very much a proponent of it. I think it is right 
for America. It is right for our alliance. It sends the right 
messages. And it is absolutely right for our service members 
and their families and their young children.
    Mr. Kline. Thank you, General.
    I can't imagine there is much resistance from the soldiers, 
sailors, airmen, marines who have served tours in Korea. And I 
know that my son's family, for example, would have been happier 
had that been an accompanied tour instead of an unaccompanied 
tour, particularly in light, as you pointed out, of the 
repeated unaccompanied genuine combat tours that have followed.
    Can you share with us where there might be resistance to 
the suggestion that you have gotten?
    General Bell. I think first in any great institution there 
is always just some resistance to change. I think I can 
overcome that.
    Sir, there are some fiscal costs here. I think the good 
news is--I mean, it is obviously not without cost. The good 
news is that our Republic of Korea ally gives us a large amount 
of fiscal support each year in what we call special measures 
agreement burden-sharing money. This year I received in the 
bank $787 million from the Republic of Korea to help defer our 
stationing costs. They pay for local national employees 
exclusively. They pay for our logistics and sustainment and 
maintenance costs. And about one-third of that money goes into 
military construction, which I choose based on my priorities. I 
run it through Congress here for oversight, and they pay the 
bill.
    And so in addition to some fiscal costs that will accrue, I 
believe our ally, South Korea, will help defer some of these 
costs in a significant way over a 10-year period.
    So there are fiscal ramifications. But again, I am not 
trying to do this in just one year. I want to put it over a 
long period of time.
    Mr. Kline. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Ms. Gillibrand.
    Mrs. Gillibrand. Thank you, Mr. Chairman.
    I wanted to talk a little bit about cyber-security and 
cyber-warfare and what the DOD's communication infrastructure 
continues to be doing to address it, and how PACOM intends 
whether or not to work with the Air Force to tie in their 
efforts with the new cyber-warfare command.
    Admiral Keating. Yes, ma'am. We do. We intend to. We are in 
fact engaged with, amongst others, United States Air Force, 
Strategic Command, Department of Homeland Security. All of 
these organizations have efforts underway to improve the 
security on the unclassified side.
    There have been attacks, to be sure, or intrusions. Some we 
think from China, whether they were state-sponsored or not, I 
don't know. So we are engaged in upgrading the firewalls and 
the overall system. That is on the unclassified side. We are of 
course paying very close attention to the classified side as 
well. So we are engaged with the Air Force and other agencies.
    Mrs. Gillibrand. And in terms of recruitment, what efforts 
are you undertaking for that, to increase the number of 
specialists we have and those who have the expertise to really 
not only serve throughout the various commands, but also to 
make our infrastructure in the armed services better?
    Admiral Keating. I will have to take the specific service 
efforts for the record, if I might. I don't know if--I would 
assume that the services are, but I don't have anything to do 
with that.
    I can tell you at Pacific Command Headquarters, we are 
continually training our own and bringing in outside, not just 
military but civilian advisers to help us upgrade in force and 
upgrade our security. But I will find out whether the services 
are conducting a special program. I don't know.
    [The information referred to can be found in the Appendix 
beginning on page 127.]
    Mrs. Gillibrand. Okay. Could you--different topic. Can you 
update me on what our current focus is with the Philippines and 
what we intend to--how we intend to approach that now?
    Admiral Keating. The Philippines is--yes, ma'am. The 
longest-standing alliance we have in the Pacific is with the 
Philippines. I have been there twice myself, have visited there 
many, many times as a younger man.
    As I mentioned, we have 500 special operations forces who 
are currently deployed to support the Philippine armed forces 
in their efforts against terrorists and undesirable elements in 
central and southern Philippines. We are making--they, the 
armed forces of the Philippines, are making significant 
progress in providing peace and stability throughout the 
relatively remote areas of their country.
    Maritime security and maritime domain awareness have 
improved significantly in the Philippines because of their 
singular efforts and their cooperation with Malaysia and 
Indonesia and Singapore. So I think from our perspective, the 
outlook is optimistic for the Republic of the Philippines.
    Mrs. Gillibrand. Are there any future requirements for 
permanent basing?
    Admiral Keating. No, ma'am.
    Mrs. Gillibrand. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Conaway, please.
    Mr. Conaway. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here.
    A couple of questions. One easy one for General Bell. I 
will ask them both at the same time, and then you guys 
filibuster and see which one of you gets the most of the mike 
time.
    General Bell, you mentioned the North Korean army is the 
fourth largest in the world. Would you put that in context of 
lethality and what it means?
    And Admiral Keating, with respect to DOD's recent analysis 
of China's modernization and the growth of their military, will 
you talk to us about the implications those have and where they 
are going on that?
    And then one final one, if you have got time, is China's 
recent denial of port calls to Hong Kong, one of them in a 
storm relief circumstance, and what that might mean?
    So, those three questions. Thank you.
    General Bell. Thank you, Congressman.
    North Korea has 1.2 million men under arms, active; 5 to 7 
million in their reserves. The whole country is only 22 million 
people. That includes children and elderly personnel, so you 
can see most of the military-age citizenry is in the military 
in one way, shape or form.
    The country has a military-first policy economically. All 
of their economic energy goes into their military first, and 
whatever else is left goes to the citizenry. Estimates are that 
one-third of its gross domestic product (GDP) is spent on the 
military. Ours is about four percent. So you can see the 
magnitude of that.
    They have 13,000 artillery pieces; 250 of them range Seoul, 
the capital of South Korea. So Seoul is constantly under the 
threat of artillery bombardment. They have an 80,000-man 
special operations force, which is only useful to them in 
offensive warfare. It is the largest special operations force 
in the world, larger than ours. They come first in their 
military, they are resourced the best.
    Now, this is not an army like the United States, even 
though it is twice the size of our army. They have legacy 
equipment. And when I say legacy, sir, I mean Korean War 
vintage equipment. They have little modern equipment and in 
terms of stacking up against us or the South Korean military, 
which is very modern also, it is not an even match. And so I 
feel very good in that regard.
    So their numbers come from strength in numbers and their 
equipment is well-maintained but very legacy and no match for 
ours.
    Admiral Keating. Congressman, the People's Liberation Army, 
Air Force and Navy are considerable in size. They are getting 
better at what they do. They have a long, long way to go. I 
submit they will not catch us, to put it in pretty stark 
language.
    That said, some of their programs are of concern to us. 
Area denial weapons, anti-access weapons, their growing 
submarine fleet, their expansion into a blue-water capable 
navy. We are watching all those very carefully. I discussed 
these developments with my counterparts in China in seeking 
intention again, and the response I get is we only intend to 
protect those things that are ours, say the Chinese, which is 
fair enough.
    It could provide challenges for us as demonstrated by their 
statement to me as they have been--one of their senior admirals 
said, ``We are going to start building aircraft carriers. You 
guys can have the east part of the Pacific, Hawaii to the 
States. We will take the west part of the Pacific, from Hawaii 
to China.'' I was allowed to say we probably would not accept 
that bargain.
    So we are watching their developments very carefully. We 
are continuing to work with them at all levels at which we are 
able to engage to seek better insight into their intentions. It 
is not clear that they are willing to share much with us, but 
we are going to continue to work on it.
    On the issue of port calls, I visited China shortly after 
they refused entry of the USS Kitty Hawk as a carrier battle 
group and the two minesweepers a couple of weeks before the 
Kitty Hawk visit. I expressed our concern and our--we were sad, 
particularly about the ships that were seeking safe harbor 
because they were low on fuel and in bad weather. You just 
don't do that, as mariners and as a nation that seeks to be 
admitted to the League of Nations. There are unwritten rules, 
and this is one of them. If a ship needs help, you provide that 
help.
    I expressed that concern to them. They accepted my input. 
Subsequent to our visit, the USS Blue Ridge, the 7th Fleet 
flagship, has been to Hong Kong and we have requests pending 
for two more carrier battle groups to visit. We are cautiously 
optimistic.
    Mr. Conaway. Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    I just want to follow up on some of the others line of 
questioning. Talking about the military buildup and 
shipbuilding, you alluded briefly to the fact that undersea 
component is substantial. The New York Times had a story a 
couple of weeks ago where you were quoted, in fact, talking 
about the fact that the size of their fleet, in terms of 
numerical size of their fleet, will exceed ours by the end of 
the decade, which actually is not that far from now.
    And I guess, you know, in terms of trying to decipher 
intentions, I mean, why undersea capability? Why are they 
building that up? And I guess the other question is, what are 
your thoughts about the capability and if this is just the 
numbers?
    Admiral Keating. They have about, around 65 submarines 
today, Congressman, the People's Republic, People's Liberation 
Army Navy (PLAN), have about 65 submarines. Half a dozen of 
them are nuclear-powered. Of those, two of them are ballistic 
missile-carrying nuclear submarines.
    So 4 attack boats, 2 nukes, about 58 or so diesel boats.
    They are good and getting better. Again, we spend a modest 
amount of time and treasure, if you will, in tracking them. We 
aren't bad at that. There are times when there are Chinese 
submarines underway and I can't tell you exactly where they 
are.
    But as you and I discussed earlier, we are not devoting 
every measure we have. We could follow them if we needed to.
    There is a capability when questioned that they, again, to 
which they don't provide much illumination. We will continue to 
press them for intention. That said, it seems clear to me that 
their goal is beyond simply protecting that which is theirs. 
They are very reliant, as you would understand and I am sure 
know, on sea lines of communication for energy demands that are 
increasing dramatically in the People's Republic of China. So 
they will want to go out and protect those sea lines of 
communication. And again, that is fair enough. But it is hardly 
anything we will yield exclusive rights to them. We will 
continue to expect and demand and exercise our right of free 
passage in international water and we want to make sure they 
understand that as well.
    Mr. Courtney. And I guess, you know, citing the litany of 
sort of unfortunate incidents recently, one of them involved 
the surfacing of a sub right near the Kitty Hawk, and I guess--
what is your perspective in terms of how that was handled and 
how that fits in, again, to this question of trying to figure 
out intentions?
    Admiral Keating. Yes, sir.
    The Song submarine that popped up a couple of miles away 
from Kitty Hawk, it was in international water. They have as 
much right to be there as do we. At that time, the carrier 
battle group was not involved in anti-submarine specific 
operations. They were doing other things. It is a capability 
that the Navy has. We are reemphasizing the Pacific--our 
interest in anti-submarine warfare, technology, training and 
equipment.
    The use of active sonar is obviously a contentious issue 
these days. It is a skill that we emphasize and would seek. We 
don't want to have that restricted in any way. So the ability 
to find and fix submarines like the Song, it depends on our 
having available the full suite of capabilities and using those 
capabilities and being trained in those capabilities.
    Song got close. No denying it. They are allowed to be 
there. It was a harmless event. The Kitty Hawk and all of our 
carrier battle groups in that part of the world are now taking 
different measures so as to try and preclude recurrence. But 
they have as much right to be there as we do.
    Mr. Courtney. At a hearing just a few days ago, Mr. Hunter 
was pointing out the fact that a review of the number of 
mission requests that our submarine fleet is capable in the 
Pacific to satisfy is certainly far less than 100 percent, and 
I guess the question is, do you see that trend worsening 
because of the fact that you have got a new maritime force that 
is growing? And I guess the question is, do we have a fleet 
size that is adequate to deal with the change that is going on 
there?
    Admiral Keating. It is adequate to meet need. I could use 
more submarines, and ships for that matter. The Navy intends to 
give us about 60 percent of the fleet, writ large, and it kind 
of goes back to Congress and the question are we ready--are we 
positioned and ready and equipped to meet requirements? We are.
    Risk increases as the number of potential threat vessels 
increase, but today I can satisfy the requirements that have 
been levied upon me by the Secretary of Defense.
    Mr. Courtney. Okay, Admiral.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And, Admiral, General, thank you very much for your 
service.
    I am the congressional co-chair of the India Caucus and, 
Admiral Keating, I am very interested in the developing 
relationship, the warm relationship and partnership that we 
have with the Republic of India.
    Incredibly, my interest in India developed because my 
father served during World War II in the 14th Air Force in 
India and also in China, and he told me how entrepreneurial the 
people of India are. And it is all coming to fruition in a very 
positive way.
    Can you tell us about the inter-military cooperation and 
the various training exercises that have occurred?
    Admiral Keating. Yes, sir. Thank you.
    Things are good with India and getting better. I was a flag 
lieutenant to the then Commander-in-Chief of the Pacific, 
Admiral Crowell, and he visited India. I was fortunate enough 
to sit behind him in some of those meetings. The reception he 
got was, I would characterize as chilly.
    I went in August. The reception was warm and engaging and 
accommodating and gracious. The Indian military, all branches, 
are eager to engage with the United States. They are anxious to 
have their officers and noncommissioned officers attend our war 
colleges and service schools. We participated with India in 
exercise Malabar in the Bay of Bengal. Two U.S. aircraft 
carriers, the Indian aircraft carrier and ships from Singapore, 
Japan and Australia. So five nations represented in navy and 
some air forces.
    They were able to communicate on a secure circuit, 24 hours 
a day, for the duration of the exercise. It was a very 
sophisticated and demanding exercise. It wasn't just 
positioning of ships. Unprecedented in our experience.
    So our relations are warm, they are open, they are candid 
and they are advancing with the Indian military.
    Mr. Wilson. Thank you very much.
    And indeed, General, I share your positive view of the 
deepening relationship we have with the Republic of Korea. It 
is really exciting, and I appreciate your hospitality to have 
visited there and seen our troops and how inspiring they are.
    I am very pleased that Congress Members Ed Royce and Ellen 
Tauscher have introduced legislation, North Atlantic Treaty 
Organization (NATO)+3, in regard to military sales.
    How do you feel this would effect the relationship between 
our great ally, Korea, and the United States?
    General Bell. Congressman, thank you.
    It is a great question, and I would like to answer it 
straight up.
    South Korea has a foreign military sales status with us 
called major non-NATO ally. That is a step below this thing 
called NATO+3. Interestingly enough, in this era, in the NATO+3 
countries are five former Warsaw Pact countries and three 
former Soviet states who now enjoy a higher foreign military 
sales (FMS) status than does our most reliable ally, South 
Korea, who, I might add, is our largest customer every year, 
year in and year out.
    So it is, from my perspective, bizarre and strange that we 
would give a higher level of foreign military sales status to 
anyone other than the Republic of Korea. I believe we should go 
to NATO+4, and that fourth would be the Republic of Korea.
    Now, just briefly, we generally provide them with what they 
need, and I don't think they have been overly restricted. But 
it sends the wrong message to our ally that somehow their 
status in our eyes is below former Warsaw Pact countries. And I 
just don't think that is right.
    Republic of Korea fought with us in Vietnam, sent troops to 
Desert Storm, Operation Iraqi Freedom (OIF), Operation Enduring 
Freedom (OEF), and now has 350 soldiers in southern Lebanon, 
and I don't know that all those other countries have that same 
battle record.
    Thank you, Congressman, I appreciate it.
    Mr. Wilson. And thank you so much for citing their--I have 
actually visited with their troops in Kabul and Baghdad. I had 
the opportunity to visit a provincial reconstruction team led 
by our Korean allies. And so I look forward to working with 
Congresswoman Tauscher and Congressman Royce.
    Thank you very much. I yield the balance of my time.
    General Bell. Thank you, Congressman.
    The Chairman. Thank you, Mr. Wilson.
    Mr. Larsen, I think we can get you before we break for what 
could possibly be three votes.
    Mr. Larsen.
    Mr. Larsen. I think a lot of us would be happy to go to the 
floor if there were actually three whole votes being taken 
instead of just one. I will look forward to that.
    First question is for Admiral Keating. When we were in 
Japan in January, we discussed with some of the U.S. Forces 
Japan folks about the command and control issues with regard to 
ballistic missile defense between the U.S. and Japan, and there 
was some discussion about the progress being made on those 
discussions with the command and control working group out of 
PACOM. Can you briefly give us an update on where that command 
and control (C2) discussion is?
    Admiral Keating. The study is not concluded. It is still 
underway, as you probably know, Congressman.
    That said, there are no obstacles that have come to my 
attention. As you know, the Japanese launched a surface-to-air 
missile and hit the intended target in the Pacific missile 
range facility around Thanksgiving, and that command and 
control structure was exercised in a very demanding real-world 
scenario.
    So I am satisfied that progress is being made, and I don't 
see any insurmountable obstacles.
    Mr. Larsen. Look forward to hearing more about that.
    On page 11 of your testimony, you said you welcome new 
resources for persistent surveillance, pages 11 and 12. Can you 
identify which resources, which assets, would be best for you?
    Admiral Keating. I would rather take that and give it back 
to you in a classified response, if I could.
    [The information referred to is classified and retained in 
the committee files.]
    Mr. Larsen. I will look forward to that, then, as well.
    General Bell, you mentioned the infrastructure investment 
in normalization. I needed to let you know that when my spouse 
was in Korea with me, that morning we spent with you, there out 
with the spouses and probably your best advocates are the 
spouses of the folks who are stationed there, there were a few 
of them there. In fact, my spouse had her finger shaking in my 
face, saying, ``When are you going to take care of this 
problem.'' Not soon enough for her, I guess.
    So you talked about normalization. You talked about the 
foreign military sales status changes. But there are some other 
issues that you discussed with us there.
    I recall that you said that the incoming president, now 
president of Korea, said he--I think your impression was that 
he wasn't against continuing forward on the op con transfer. 
There was some discussion about it in the election. Can you 
give us a more firm view on the new president's view on op con 
transfer?
    General Bell. Congressman, I can. He and his subordinates, 
the minister of national defense, the national security 
adviser, et cetera, have all said in front of their own 
committees and to me that they, one, support op con transfer, 
that they are absolutely committed to accomplishing it by 17 
April 2012. We have agreed to a timeline and we have signed 
those timelines.
    All they have asked for at this point is a good review 
process to see how we are doing against those timelines. I am 
very confident we will meet all the objectives of the 
timelines. I don't see any obstacles at all.
    I am very confident that we will do what is right for this 
alliance. We will take down the lightning rod for periodic 
anti-American sentiment, which can be a foreign officer 
commanding your military in wartime, me, and it will be healthy 
for our alliance. And I am very optimistic about it. We are in 
good shape and this government is supportive.
    Mr. Larsen. So the review is not over whether or not to do 
the transfer? It is just to have some auditing, that timelines 
are getting met to move to the transfer?
    General Bell. That is correct, Congressman.
    Mr. Larsen. Great. Thanks.
    Another issue you discussed, and I don't know if you want 
to discuss it here, but I will bring it up. Between op con 
transfer, normalization, foreign military status change, it is 
starting to get to look like a, you know, how we ought to 
approach the Republic of Korea (ROK)-U.S. alliance well into 
the future. A lot of steps.
    One thing you mentioned to us was the idea of what you 
called a strategic pause in the ROK drawdown of U.S. forces. 
Can you chat a little bit with us about that and what the 
implications of that might be?
    General Bell. Well, we have drawn down our force to 
approximately 28,500 right now from a high of 37,000 just a 
couple of years ago. So about 9,000 troops have come off the 
peninsula in the last four years.
    If we complete our drawdown, that would require us to take 
down another 3,000, leaving us at 25,000. I believe the 
Republic of Korea is going to ask us, and perhaps when 
President Lee Myung-bak visits here, if we will have a pause in 
that to study the future requirements.
    If he does ask for that pause, I think it would be prudent 
for the United States to agree to sit down and discuss the 
issue and then potentially execute a pause based on those 
discussions.
    And that is really all I know right now. We will have to 
wait and see what they ask for.
    Mr. Larsen. Sure. Appreciate that very much.
    Thank you, General. Thank you, Admiral.
    General Bell. Yes, sir.
    The Chairman. Thank you very much.
    I think we honestly ought to break, and I understand we 
have three to five votes. So, gentlemen, have patience.
    [Recess.]
    Dr. Snyder [presiding]. We are going to go ahead and get 
started. I think Chairman Skelton is going to be 10 or 15 
minutes before he gets back.
    Where are we at?
    Mr. Franks for five minutes.
    Mr. Franks. Well, thank you, Mr. Chairman.
    You know, I always try to express my appreciation to the 
people from the armed forces that appear before this committee, 
because we just want to always remind ourselves here that apart 
from your courage and your commitment and sacrifice, none of us 
could be here. And the idea of a free republic would just 
simply be a fantasy in the world. So thank you so very much.
    Admiral Keating, I, to just say a word further, I think you 
personify everything the sailors would like to be when they 
grow up. I am just grateful for your example and for----
    Admiral Keating. I hope my wife and kids are watching.
    Mr. Franks. Well, I hope they are, too.
    But last year, you signed a letter in support of space 
radar. And you advocated it, you know, as a combatant 
commander, that your need for the capabilities that the system 
would provide, that would include open ocean surveillance and 
moving target indications from territory that would be denied 
to aircraft.
    And as you probably know--just for the record, space radar 
is not built in my district. As you may know, space radar 
program has been effectively cancelled, in a sense, unless it 
emerges in some other form, in some other area.
    And so I guess my question to you is, does the U.S. Pacific 
Command still require these capabilities? It is a pretty heavy 
question.
    Admiral Keating. Thank you, Congressman.
    In Pacific Command the requirement does exist. That has not 
diminished in any way. In fact, it is at least as pressing, if 
not a more pressing requirement, today than it was when I 
signed the letter.
    It goes to Congressman Larsen's question. Intelligence 
surveillance and reconnaissance are an abiding concern of ours 
for the entire AOR. There is, of course, a large maritime 
aspect to that.
    So open ocean surveillance and denied area surveillance is 
a significant requirement of ours, and the platform that 
satisfies the requirement is of less interest in its specifics 
than is the overarching requirement. The requirement still 
exists.
    Mr. Franks. I understand.
    Space radar is a tough one to replace with just one 
capability, as you know. But thank you, sir.
    General Bell, I had the wonderful privilege of coming over 
to South Korea and visiting you, along with Mr. Akin and Mr. 
Larsen and Ms. Tauscher, and what an enlightening trip that 
was. And I want you to know I appreciate you and I think that 
we are very fortunate to have your service there.
    I understand that you have recommended that the U.S. set a 
cooperative policy to maintain a meaningful troop presence on 
the Korean peninsula, even if there is a peace treaty signed 
with North Korea. And I wonder if you could expand on that a 
little.
    General Bell. Thank you, Congressman.
    I am of a mind that that region of the world is of vital 
national interest to the United States. Twenty-five percent of 
the world's trade today flows through that area, and that is 
growing.
    South Korea itself is our seventh largest trading partner. 
And of course, right next to us, China, one of our big trading 
partners, obviously, as is Japan. And of course, that area of 
the world is an area over history that has been fraught with 
any number of clashes and wars and confrontations that have 
destabilized the region and, indeed, the world.
    And my sense is that U.S. presence on the Asian mainland, 
in the Republic of Korea, is a stabilizing influence, and that 
irrespective of the resolution of the North Korea issue, that 
it is in our interest, because of our trading partnership and 
our desire for stability and security in that area of the 
world, it is in our interest to have a long-term relationship, 
not unlike we have today in Europe.
    So I am advocating that we recast the alliance as something 
beyond simply a confrontational alliance to prevent aggression 
against South Korea by North Korea and recognize that the 
treaty we signed in 1953 doesn't even mention North Korea. It 
talks about mutual defense against any aggression in the 
Pacific region on either partner. And I think the way the 
treaty is written is exactly right and we ought to cast it in 
that light. And I think it is in our interest to do that.
    Mr. Franks. Well, thank you, sir.
    You also, in appearing before the Senate Armed Services 
Committee, you projected a need for South Korean military and 
private facilities to be protected from the North Korean 
missile capability and that South Korea should set up a missile 
shield against potentially incoming intercontinental ballistic 
missiles or just whatever it might be, and adding that it 
should be compatible with the U.S. system.
    And I wonder if you could expand on that a little bit. It 
seemed very important to me when we were there.
    General Bell. Thank you, Congressman.
    North Korea has a wide variety of legacy and modern 
missiles, and we project that there are about 800 of them 
operational now. Most of them, theater ballistic missiles. 
Relatively short-range, but they range the entirety of the 
Korean peninsula.
    I have got Patriot batteries over there right now 
protecting sensitive U.S. sites, mostly aviation sites, et 
cetera.
    The Republic of Korea does not have a complementary system 
fielded right now. I think it is in their interest that they do 
that. They have begun to approach this properly, I think. They 
are going to purchase German Pat-2 Patriots. That is a start. 
And they are, of course, fielding Aegis destroyers now, not 
equipped with theater ballistic missile (TBM) capability, but 
they do have the radars onboard, which are very important.
    And so I think it is in their interest to look more 
directly at the anti-theater ballistic missile capacity, 
partner better with us and fully integrate with our capacity, 
so that they can provide a more protective envelope for their 
nation. And there is even opportunity to go beyond that into 
the region.
    And so I think it is in their interest, and I am arguing 
strongly for it.
    Dr. Snyder. Mr. Cummings for five minutes.
    Mr. Cummings. Thank you.
    Thank you very much, Mr. Chairman.
    Admiral Keating, I just have a few questions about China.
    DOD's recently-released annual report on China's military 
power notes that China has recently agreed to begin submitting 
an annual report to the United Nations on its military 
expenditures. How significant is this development in terms of 
increasing China's transparency?
    Admiral Keating. Any indication by the Chinese of their 
strategy, of their intention, we welcome. I would be surprised 
if this were a terribly illuminating document they send the 
United Nations, Congressman.
    Nonetheless, any--as I say any disclosure that they make, 
any document that they sign, would be of benefit.
    Mr. Cummings. And so you have little confidence that they 
will release anything very meaningful? Is that what you are 
saying?
    Admiral Keating. My personal experience would recommend 
they would not be very forthcoming, Congressman.
    Mr. Cummings. Roughly how many PACOM military personnel 
speak the Mandarin Chinese language? Do you know?
    Admiral Keating. I don't. I will take that one and get back 
to you, Congressman. I do not know.
    [The information referred to can be found in the Appendix 
beginning on page 127.]
    Mr. Cummings. How important are language skills to U.S.-
China security cooperation? How important is that? Do we have 
programs in place to strengthen those skills?
    Admiral Keating. Yes, sir. We do have programs in place. 
And it gives us an appreciation, a better appreciation than 
those who don't speak Mandarin or any of the Chinese languages, 
for their culture and their way of thinking. And that is 
proving to be somewhat problematic for us.
    Mr. Cummings. And section 1201 of the fiscal year 2000 
National Defense Authorization Act restricts inappropriate 
exposure of the People's Liberation Army (PLA) to certain 
operational areas and requires annual reports to Congress on 
all contacts with the PLA. Is the provision still relevant or 
necessary given the progress on the United States-China 
military engagement over recent years?
    Admiral Keating. I think it is relevant, Congressman. It 
does not restrict us. You will notice, if I understand the 
language right, it doesn't require our permission to engage. It 
just requires us to notify once the contact has been made. And 
in any case, we are increasing the engagement opportunities and 
their participation, albeit limited in exercises. So that 
language does not restrict us, Congressman.
    Mr. Cummings. Finally, on February 29, 2008, the United 
States and China signed that agreement establishing the defense 
hotline between the two defense establishments. It is China's 
only such defense hotline with another country at the defense 
ministerial level. Installation of equipment is scheduled to 
begin in a few weeks.
    What is the potential of this hotline to enhance 
communication and avoid miscalculations between the United 
States and China?
    Admiral Keating. Congressman, I think the installation of 
the hotline is a significant step. It is not the end-game. It 
is not where we want to end up with the Chinese Ministry of 
Defense or the Liberation Army officials, but it is a 
significant first step.
    And as Congressman Sestak mentioned earlier, there is no 
guarantee the Chinese will answer the phone. And that is a 
little glib, but our dealings with the Chinese officials have 
been characterized by that exact event occuring. In the case of 
the EP-3 that went down, there were hours that went by when we 
kept trying to get someone to answer the phone. Literally, they 
did not.
    So installation of the hotline, a significant step forward. 
It is progress, but it is not end-state.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Dr. Snyder. Thank you.
    Mr. Wittman, for five minutes.
    Mr. Wittman. Thank you, Mr. Chairman.
    Admiral Keating, thank you for being here today in this 
hearing. This is my first as a member of this great committee 
and I am humbled to be part of these proceedings.
    Recently I visited Dahlgren Surface Warfare Center in 
Dahlgren, Virginia. In fact, it was the day after the 
successful targeting and destruction of our imagery satellite 
last month.
    Can you tell me what your assessment is of China's and 
Russia's response to this operation? Do you expect that China 
will continue to demonstrate their own anti-satellite 
capabilities?
    Admiral Keating. Congressman, the shortest answer is, I am 
not sure how China and Russia are reacting. China's initial 
reaction was muted, as was to the best of my understanding 
Russia's, which is interesting to us.
    I think it is indicative of our transparency and our stated 
intentions from all levels of the federal government. We told 
the world what we were going to do. We told them about when we 
were going to do it, about where. And it turns out that we 
``hit what we were aiming at.''
    As opposed to the Chinese, who didn't tell anybody they 
were going to, outside of--and there were many in their own 
government who didn't know they were going to attempt and they 
succeeded in hitting one of their weather satellites.
    So their response has been muted. I think that is a 
favorable reaction, if you will. There was not a significant 
outcry. I have not been to China since our shoot down. I am 
looking forward to the opportunity to engage with them on that, 
because we were very critical of their--the lack of 
transparency that they demonstrated in their shoot down. So I 
look forward to the conversation.
    Mr. Wittman. Thank you, Mr. Chairman. I yield the balance 
of my time.
    Dr. Snyder. Mr. Taylor, for five minutes.
    Mr. Taylor. Thank you, Mr. Chairman.
    Admiral Keating and General, thank you very much for being 
here.
    Admiral Keating, on page 18 of your testimony, I am 
quoting, ``The Army downloaded APS force stock equipment to 
support the Iraq-bound Army units.''
    It is my understanding that the typical National Guard and 
Reserve unit is operating at about 60 percent of their 
equipment assignments. If you were to have a running start, 
although unlikely, but a running start conflict with the North 
Koreans today, what equipment do you have? What is your 
equipment percentages on the Korean peninsula?
    Admiral Keating. Would you like--B.B. knows more about it 
than I do, Congressman.
    General Bell. I will take the first part of that.
    Our Army prepositioned stock (APS) force stock on the 
Korean mainland, which I control, run by the Army Materiel 
Command, is in top-notch condition. I have tested it. I have 
brought Army troops over from the continental United States, 
drawn a sampling of that equipment, taken it to the range and 
shot it, interviewed the troops myself at your encouragement, 
and I was very, very pleased.
    So on the peninsula, we are in good shape. Our issue, of 
course----
    Mr. Taylor. General, what does good shape translate to 
percentage wise?
    General Bell. We have 100 percent of our combat equipment. 
We have 96 percent of all the equipment authorized. And it is 
at 97 percent operational readiness rate.
    Mr. Taylor. In the entire Pacific Command, given, again, 
hopefully, a very unlikely scenario, the Chinese move on 
Taiwan, how would you rate your equipment stocks, Admiral?
    Admiral Keating. The Navy and Air Force equipment stocks 
are at 100 percent, and with commensurate readiness levels for 
that equipment. The Marine Corps has used one of their two 
afloat pre-position ships and are replenishing that as we 
speak. So Air Force and Navy are at 100 percent and Marine 
Corps is at 50 percent and climbing.
    Mr. Taylor. If you were in a position to request assets and 
you were offered either two DD1000s or five DDG51s with 
enhanced radars, and you were given one or the other package to 
take for your command, what would you prefer to have?
    Admiral Keating. Five over two.
    Mr. Taylor. Is there anything in particular about the 51--I 
am sorry, about the 1000, that is of particular interest to the 
Pacific Command? Or to take it a step further, in your opinion, 
should you and I be fortunate enough to have this job for 
another 10 years, would you rather have the 1000 or a nuclear-
powered cruiser? I realize this is not something that is going 
to happen overnight, but it is something that your successor--
--
    Admiral Keating. Yes, sir. I would recommend the 1000. I 
have had the benefit of deploying on nuclear-powered aircraft 
carriers and have enjoyed the advantages attendant to that 
nuclear power plant, Congressman. But for a cruiser with the 
logistic capabilities that are resident in the Navy today, I do 
not think that nuclear power for a cruiser is as important as 
the other capabilities that might be resident in the E1000.
    Mr. Taylor. Can I remind you of your earlier statement, 
about the need for the fleet to pull into port because it was 
low on fuel? Would that happen with a nuclear cruiser?
    Admiral Keating. It is less likely to happen with a nuclear 
cruiser.
    Mr. Taylor. Would Admiral Houser have sailed into the 
typhoon off of the Philippines at Christmastime of 1944 if his 
destroyers were full of fuel?
    Admiral Keating. It would not as likely have happened with 
nuclear power.
    Mr. Taylor. Okay.
    Thank you very much. Thank both of you for your service. 
And if there is--and again, I am concerned. There are obviously 
the known costs of this war. Kids lying up at Walter Reed, 
Bethesda, kids at Arlington. I am concerned of the unknown 
costs of this war, as far as equipment being worn out and not 
replaced. And I would hope that in your leadership capacities, 
you would make us aware of what needs to get done.
    Admiral Keating. Yes, sir.
    Mr. Taylor. Thank you very much.
    Thank you, Mr. Chairman.
    Dr. Snyder. Thank you.
    Mr. Forbes, for five minutes.
    Mr. Forbes. Thank you, Mr. Chairman.
    Admiral, thank you for being here. And General.
    Admiral, I have two questions for you, both of them 
relating to China. The first one that has been a concern of our 
committee is, obviously, our flagships are sending our carriers 
anywhere around the world, and the carrier groups that are 
there. We are sending one of the most expensive assets we have 
any time we have a conflict. And we are loading it with 
thousands of the best men and women we have and some of the 
most expensive airplanes.
    One of the threats to those carriers are the threat-d 
missiles, particularly the Sizzler. And we know that China has 
armed their submarines with those missiles now. We also know 
the Russians are trying to sell them on the world scene, 
perhaps even to countries like Iran, even though we don't know 
that for certain.
    The question I would have for you related to that 
particular missile is, are we confident now that we can stop 
it? We put a $10 million add in the budget last year to make 
sure we could develop the defense, and as I understand it we 
won't have that defense ready until 2014. Is there anything we 
can do from this committee in terms of either scheduling or 
funding that could help ratchet that time period up? That is 
the first question I have.
    And the second one relates to the March 22nd referendum 
that is going to take place in Taiwan. You and I have talked 
about this before, but, you know, everything we have heard from 
our Taiwanese contacts, be they political or military or 
academic, is that they may take some kind of action, depending 
on how that referendum might come out. Can you just give us 
your assessment of what that looks like and what that 
particular action could be if China were to react?
    Admiral Keating. Yes, sir.
    On the first question, Congressman, I recently appeared 
before the Joint Chiefs of Staff to express Pacific Command's 
concern for our electronic warfare, electronic countermeasures 
status. It is of concern to us in the Pacific Command, 
principally because of People's Liberation Army, Navy and Air 
Force developments.
    We talk about area denial weapons and anti-access weapons. 
Included in that arsenal are the weapons that you are 
discussing.
    The Department chooses where to spend its money, of course. 
Any and all emphasis we can get from you to improve the status 
of electronic warfare, research and development would be 
appreciated. The missile you described in a very sophisticated 
piece of hardware and we are currently not as capable of 
defending against that missile as I would like.
    On the Taiwan referendum, which is in two weeks, I guess, 
on the 22nd, the indications we get, Congressman, are the 
referendum will fail. We hope it does, frankly. If it passes, 
China will likely take some to significant umbrage at the 
passage and their response is unpredictable.
    We are prepared for various alternatives at the Pacific 
Command, military options. We have forces that are positioned 
in anticipation of potential activity. I do not foresee it 
happening, but the Chinese have made it clear to us that they 
view this referendum with some concern. Should it pass, their 
response is unpredictable and it could potentially include a 
military option.
    Mr. Forbes. One follow-up question to that, back on the 
Sizzler. The $10 million that we put in the budget that we did 
direct toward developing a defense for that, is that adequate 
in terms of dollars? What is it that is delaying us until 2014? 
Some of us are a little bit uncomfortable going from now to 
2014 not having a defense that we feel comfortable with on that 
missile.
    Is there something we can do in terms of increased funding 
that would assist that, directed at that defense? Or is there 
something we can do to help in the scheduling that might 
ratchet that up from 2014 to a closer time period?
    Admiral Keating. Congressman, let me take that one and get 
you a specific response. Beyond my--we could use anything we 
can get as soon as we get it, which is not satisfactory. It 
happens to be the truth. But let me get you a detailed response 
as to what activity--what action your committee could take that 
would be helpful in terms of funding and priorities and 
timelines.
    [The information referred to can be found in the Appendix 
beginning on page 127.]
    Mr. Forbes. Thank you Admiral.
    Thank you General.
    Mr. Chairman, I yield back.
    Dr. Snyder. Mr. Ortiz for five minutes.
    Mr. Ortiz. Thank you, Mr. Chairman.
    Thank you so much for joining us today. Good to see both of 
you.
    Admiral Keating, with the Global War on Terror focused on 
the Central Command area of responsibility, and I know it is a 
huge, huge area, but we do have efforts to defeat the war on 
terrorism. And I know that fortunately this area of 
responsibility includes the Philippines and Indonesia and other 
areas now.
    How do we do to defeat this huge problem that we have? And 
are you happy with the tools that you have?
    Admiral Keating. It is our number one challenge, Mr. 
Congressman, the struggle against violent extremists in the 
Asia Pacific region.
    I am more concerned with that than I am with, let's say, 
North Korea or the People's Republic of China or any--it is my 
number one concern, our number one concern.
    The progress we are making, I think, is significant. There 
is, of course, much yet to do. We are undertaking as broad an 
effort as I think we can. It is not just military only. It is 
an interagency, interdisciplinary, inter-governmental approach. 
And we are also emphasizing this to our commercial partners.
    A simple example is the Container Security Initiative. The 
more secure each of these systems is and the more interlocked 
those systems are, the greater the chance that the terrorists 
will be unable to prosecute their attacks, the tougher it is 
for them to move around, and the more demanding it is for their 
suppliers to get them money and logistical support.
    So it is hardly a United States military initiative only, 
though we are as often as we can taking the lead. Examples 
include the 500 special forces we have in the Philippines. 
Examples include the support we are giving to Indonesia and 
Malaysia and Singapore for counterterrorism efforts in their 
country, the support that we are providing countries who aren't 
quite so prominent on the radar scope, like Vietnam, Laos and 
Cambodia. In each of those cases, we are providing training, we 
are providing information and, in some cases, sanitized 
intelligence, all intended to make it tougher for terrorists to 
move around, tougher for terrorists to seek sanctuary and to 
find sanctuary, and tougher for their supporters to get them 
the supplies that they need.
    Mr. Ortiz. Is your budget adequate to address those issues 
that you just mentioned?
    Admiral Keating. Congressman, it is.
    Mr. Ortiz. You know, one of the things that I worry about 
is that if we have to respond to those areas, one of the 
concerns that I have is sustainability. Are you satisfied with 
what we have, to be able to sustain those troops in case there 
is an emergency there, in case a conflict arises? Because I 
know in that area, you know, fuel has become a very precious 
commodity, especially at over almost four dollars a gallon.
    So do you think you will be able to sustain your troops if 
the need came to that?
    Admiral Keating. We do, Congressman. We assess and reassess 
and reassess constantly, on a daily basis, in our headquarters. 
And I report my evaluation to the Secretary of Defense on a 
monthly basis. Our assessment today reflects the state of 
affairs since I have been in command, and that is we are 
adequately resourced to meet the requirements that are levied 
upon us.
    To be sure, and as we mentioned earlier, we would have to 
make adjustments to the execution of some of our plans, and we 
would take a little bit longer in the achievement of success--
as we achieve success. On the sustainment piece, we have been 
able to reinforce the stocks ashore and afloat and, as 
referenced in Congressman Taylor's question, and we are--for 
example, we have two carrier battle groups forward-deployed 
today. We have six B-52s in Guam. There are three B-2s 
remaining there. We have an SSGN, one of the new Tomahawk-
shooting ballistic submarine boats, former ballistic missile 
boats.
    So we are adequately resourced to be able to provide the 
sustainment that the troops need.
    Mr. Ortiz. My time is about up now, but I want to thank 
both of you for your service to our country and thank you for 
the great job that you all do.
    Thank you, sir.
    Dr. Snyder. Mr. Akin for five minutes.
    Mr. Akin. Thank you very much.
    You are all very patient. I think we have had a few 
interruptions.
    But just to get to the point and maybe give you about the 
third kick at the cat, General Bell, but we had a fantastic 
congressional delegation (CODEL) looking at missile defense and 
also a visit to South Korea. And you made the points there, and 
you have made them here this afternoon, the geopolitical 
importance of what is going on.
    And it seems to me that what you are saying is, if you 
could use South Korea the way the basing is set up so that 
people could take their wives and kids and all, it solves a 
number of different problems. What are, first of all, the 
immediate benefits for doing something like that?
    General Bell. Well, the immediate benefits of having our 
families with us, of course, it makes us a happier military. 
Nothing makes a service member less happy than being separated 
from his or her family.
    Clearly, with the combat rotations that we have now and the 
fact that we are a volunteer force, these rotations are very 
complex for all of our service members. So the immediate 
benefit would be to slow that process down.
    Mr. Akin. So it helps in the operational tempo thing, which 
is a problem all across the board for us, right?
    General Bell. Operationally, it would help me because if I 
have a service member there, like in Europe or Japan, for three 
years instead of one year, not only do I have stability in the 
ranks, but I have got an experienced service member who doesn't 
have to relearn everything once a year after an exercise. So 
operationally, it is of great import.
    So just from a force readiness and a compassion 
perspective, having your families with you is a very important 
matter overseas.
    I think it also sends a very powerful message of commitment 
to our allies and to our friends and partners in the region. If 
we are willing to have our families with us, then we must be 
committed. And we are committed. By not having our families 
there and having one-year short rotations, it argues that we 
are waiting for something to be over and then we will be done 
with it and leave because of the kind of rotations that we 
currently have.
    So I would like to end that process and establish some kind 
of permanent approach to our garrisoning over there. And I 
think we will all win from it. I know we will. There will be a 
fiscal cost, but it is moderate at worst, and I think with host 
nation resourcing that it can be mitigated very well over about 
a 10-year period, and that is what I am advocating. A 10-year 
transition period, not something next Thursday.
    Mr. Akin. So if you did have a 10-year transition period, 
as you are talking about, would it be possible then to start 
increasing the number of families who have wives and kids? In 
other words, you build some facilities, you could bring some 
in----
    General Bell. Absolutely.
    Mr. Akin [continuing]. And as you build more--and I think 
you said that the South Koreans have already partnered with us. 
They have got some real estate that they have got laid out. 
They are going to help with it. So it is a matter of us just 
finishing our commitment to that project. Is that correct?
    General Bell. Yes, sir. They are aggressively pursuing 
their end of the bargain already. They have spent about $2 
billion cash. They are committed and the commitment is not 
against dollars. It is against projects. But it is about $7 
billion to $8 billion total that they are helping us in our 
move.
    Mr. Akin. What do we need, just to sort of cut to the chase 
here, what specific thing should we look for in the budget to 
see--or do we need to put in the budget--what authorities do 
you need? First of all, you need some TRICARE, so you have got 
some kind of a medical plan over there. Is that correct?
    General Bell. The first thing I need, Congressman, is a 
policy decision in the Department of Defense, and I am working 
with DOD, because there are a lot of ramifications for this. 
And as of this moment, that policy decision has not been 
completed. So I am arguing for it, but without the correct 
policy with regard to stationing, then certainly I am limited 
in what I can do.
    But I can do some things myself, and I have. For example, I 
can increase command sponsorships for those service members who 
are currently authorized over there and allow some additional 
families as far as the facilities that I can procure. So I need 
more child development centers. I need more DOD school systems. 
I need more medical facilities, certainly, to do this. And I 
would put that in place over a period of 10 years.
    And I think as we ramped up with our families, about 17,000 
additional family members, potentially, I am not sure that many 
would actually show up, but that many possibly, over a 10-year 
period, is about 700 or 800 a year, and we can easily absorb 
that in our maintenance and building programs, in my view. And 
after 10 years from now, we will have a fully functioning, 
three-year command sponsorship tour over there.
    Mr. Akin. And that would certainly show a good commitment 
to the Koreans that have been with us----
    General Bell. It would.
    Mr. Akin [continuing]. Ever since Vietnam and every other 
place. They have been a good ally, as you have mentioned, and 
it does send a message to the entire region.
    I just hope that you know you have got some good support 
for that from members of the committee here. Certainly 
Congresswoman Tauscher, who led the CODEL, I think is very much 
onboard, and a number of others. So we want to try to see that. 
It seems like a good, logical investment overall.
    General Bell. Thank you, Congressman.
    Mr. Akin. And, again, I want to just thank everybody here 
for your service and your good work and all. So thank you for 
the afternoon.
    Dr. Snyder. Thank you, Mr. Akin.
    I am going to take my five minutes now.
    Admiral Keating, during the last vote, several series of 
votes, I happened to run through the cloakroom over there, and 
once again there was more cable news discussion of Admiral 
Fallon's resignation.
    You know, I didn't know him well, personally. We always 
enjoyed the exchanges with him here. And so I have two 
emotions. One of them is sadness, because I have such great 
respect for this very small number of people that occupy the 
niche. I guess, what, five? Are there five of you combatant 
commanders?
    I mean, since the time I got here, I remember having a 
discussion with Ron Dellums, you know, the big Oakland radical 
who came out here, Oakland radical self-described.
    And after I had been here a few months, you know, I grabbed 
him after one of these hearings and I said, ``These guys, these 
combatant commanders, who are these guys?'' And Ron said, ``I 
go back home and talk to all my friends and I say these guys 
are the pinnacle of what America has to offer.'' And I still 
believe that, and I include you in that group.
    Admiral Keating. Thank you.
    Dr. Snyder. So it is with great sadness that I see that 
Admiral Fallon left.
    And the other emotion--and maybe it was completely 
appropriate for him to leave. I don't understand. I can't see 
through the dark glass. But from this perspective, we get 
apprehensive about what does this potentially mean when we have 
a fellow that we did have great respect for, still have great 
respect for, who we valued his candor, both in private and 
publicly.
    So my question for you is, recognizing it is a delicate 
question for me to ask you, but what kind of apprehensions or 
concerns does it create for you as a combatant commander in 
terms of, as you look at what you are supposed to say either 
here at this hearing or as the press grab you walking out of 
this room or the kinds of lengthy interviews that apparently 
led to the magazine article? Any comment you want to make or 
not make, I would appreciate.
    Admiral Keating. Yes, sir.
    Admiral Fallon is a good friend. I worked for him and with 
him for decades and, like you, I am sad that he is leaving the 
service, period.
    I feel no apprehension, Congressman, in my current 
position, as to my ability or my responsibility to express 
opinions dissenting or supporting for administration policy or 
departmental policy. I promise you, I come in here without any 
muzzle, either implicitly or explicitly applied by any of my 
superiors.
    I have had the good fortune of spending some time with the 
President and at the National Security Council, in the 
Department of Defense with all manner of officials, and never 
once has there ever been an intimation of any desire to 
restrict my ability to express my personal and professional 
opinion. So I have no apprehension at all, sir.
    Dr. Snyder. I appreciate your comments.
    I want to shift and ask a specific question which, 
coincidentally, is related to Admiral Fallon's testimony here 
within the last week.
    He testified in response to some questions, first from 
Congresswoman Sanchez and then I think from Mr. Thornberry, 
that he felt that right now, today, in addition to the 3,400 or 
3,500 Marines that are coming onboard in Afghanistan, that he 
needed 2,000 additional Marines.
    The following day, I think it was the following day, the 
commandant of the Marine Corps was sitting where General Bell 
is, and I asked him, ``Do you have the ability to provide 2,000 
additional Marines?'' And he said he did not.
    You were quoted not all that long ago in a ``Boston Globe'' 
article saying, I will just read your quote as they quoted you, 
``We have had to adjust our strategic plans a little bit 
because of the 30-some thousand Marines and soldiers who 
ordinarily are in our area but are not.'' That was your quote, 
``who are ordinarily in our area but are not.''
    My question is, I assume if somebody called you up and 
said, ``We need 2,000 more Marines from your area,'' that that 
would put--I mean, you have some apprehension about the troops 
that already are not there, that that would not be a very 
favorable thing or request for you to hear. Is that accurate?
    Admiral Keating. As far as it goes, Congressman.
    I certainly don't mean to be coy, but I have got 2,000 
Marines. I have got 280,000 in the Pacific Command bag, if you 
will. So if we had a crisis, running start or no, and X number 
of forces were required, I am confident I would either have 
them in the Pacific Command or be able to get them, depending 
on the nature of the crisis.
    If it were a significant peninsula issue, we would 
certainly anticipate a running start for it. But if there were 
a no-notice attack anywhere in the AOR, I have resources at my 
disposal immediately that I think are sufficient to immediate 
need. Two thousand Marines, I could get them today in the case 
of a crisis.
    Dr. Snyder. You know, that is interesting, in case of a 
crisis, because this--I think sometimes--well, let me put it 
another way. To have Admiral Fallon, you know--we talk a lot 
about we want to hear from the guys on the ground, who are 
close to the ground, and you are the leadership as close to the 
guys on the ground--and to have him say, ``I need 2,000 more.'' 
He said, ``I don't need more than that, but it would be very 
helpful to have 2,000 more troops.''
    Now you are sitting here a week later saying you could come 
up with 2,000 Marines if you had to. You know, I don't want to 
get anybody in a box here, but it is concerning to hear that--
it was different. The phrasing was not, ``Well, we could always 
use more.'' It was, ``I need 2,000 more troops.''
    Maybe we will leave it there for today, Admiral Keating.
    Admiral Keating. Okay.
    Dr. Snyder. General Bell, I wanted to ask on the issue that 
Mr. Akin was talking about, and others, with regard to going to 
the families. I think that is a great direction to move. I 
think you will find a lot of support for that.
    I wanted to go a bit the opposite way. I have wondered, 
too, if given that these were unaccompanied tours, which do put 
strains on families, that almost all those troops, I think, are 
active component forces. Is that correct?
    General Bell. That is correct.
    Dr. Snyder. I wondered if it wouldn't be--if there wouldn't 
be some advantage to go the other way, which is if you are 
going to have unaccompanied tours, maybe the way to handle that 
would be to use our Reserve component forces in those 
positions, where a four-month rotation or a five-month rotation 
or a three-month rotation or a six-month rotation, where they 
could come over there, be mobilized. They would not be 
separated so long from their jobs and families as a Reserve 
component force.
    But obviously you are not moving in that direction. Is that 
potentially a problem? Is an issue of training part of the 
consideration?
    General Bell. Well, Congressman, you know, we do have a lot 
of Reserve components committed to our op plan and they train 
with us frequently. We just concluded a major exercise and had 
hundreds and hundreds of our Reserve component personnel over 
there, and they are a key part of our operation.
    However, the garrisoning of troops overseas, whether it is 
for a one-year short tour or a three-year permanent tour or 
four or five months, while we do that, clearly, in Kosovo 
today, and we certainly did it in Bosnia and those troops 
responded magnificently--they were under my command when I was 
the United States Army Europe commander and a NATO commander.
    I believe we are beyond that in the Republic of Korea. The 
Republic of Korea is not in my view a theater that responds 
well to short-tour combat-focused rotation today, although we 
have a threat there, I admit that, not unlike we had in the 
Cold War with the Soviet Union.
    But I think it is in a position now, with the quality of 
the military, the Republic of Korea, the partnering that we do 
with them, the regional focus that we have, hopefully, and in 
the future will have, that it lends itself to the kind of 
stationing like we enjoy in Japan and like we enjoy in Europe.
    And so while I love our Reserve component troops big time, 
and I have great relationships with them and they are 
operational forces now, as you well know, they are no longer a 
strategic reserve, I believe we are best served in Korea with 
active component, normal three-year rotational forces. That is 
my assessment after looking at it over there.
    I would certainly love to have Reserve components rotate 
over there any time anybody wants to send them to me, because 
they are terrific soldiers and sailors and airmen and Marines.
    Dr. Snyder. I understand.
    Thank you all for your time today. We apologize for the 
delay with the votes. We have all been through that before.
    General Bell, if we don't see you again, best wishes.
    General Bell. Thank you, Congressman.
    Dr. Snyder. I am sorry. I didn't realize Mr. Skelton was 
here. So you are not off the hook yet.
    General Bell. Congressman, the chairman never lets us off 
the hook, whether we are here or not.
    The Chairman. Thank you.
    Dr. Snyder, I appreciate you being able to take over and 
chair the meeting while I had some very, very pressing 
obligations.
    Admiral, you could come up with 2,000 Marines, right?
    Admiral Keating. Correct.
    The Chairman. Could you come up with 2,000 soldiers?
    Admiral Keating. Yes, sir.
    The Chairman. Three? Three thousand?
    Admiral Keating. Yes, sir.
    The Chairman. How high do I get to go?
    Admiral Keating. Well, I have 280,000 folks in uniform in 
the Pacific, Mr. Chairman. I certainly don't mean to be glib, 
but if push comes to shove, depending on how bad the situation 
is, I can get all of them.
    Let me clarify that. It is not so much that I have to go 
get them. I have got them today.
    The Chairman. Can we talk about China for a minute? You 
have noticed a distinct warmth with the way you have been 
treated and accepted. Am I correct?
    Admiral Keating. That is correct, sir.
    The Chairman. China recently, I don't know whether it is in 
theory or whether there is a requirement, but China recently 
gave a list of its military increases over the year, purchases 
over the year, to the United Nations. Am I correct?
    Admiral Keating. That is my--yes, sir. I think you are.
    The Chairman. But this has not been the case before.
    Admiral Keating. That is my understanding, yes, sir.
    The Chairman. Can you read anything or very much into that?
    Admiral Keating. I do not think we should read too much 
into it. We will see what the Chinese give us. But I don't--I 
do not think that this will be a revolutionary revelation, Mr. 
Chairman. I don't think it will amount to much. I hope it does, 
but I don't think it will.
    The Chairman. We have requested something similar, is that 
correct, from them? To your knowledge?
    Admiral Keating. I don't know that we have asked for 
anything of a formal manner from the Chinese. The Department 
may have, of which I am unaware. But I have asked for that sort 
of information frequently--well, in two visits and in other 
opportunities to meet with them, Chairman, but I will find out 
if the Department has asked for an official declaration by the 
Chinese.
    [The information referred to can be found in the Appendix 
beginning on page 127.]
    Admiral Keating. Now, they issue a white paper. They have 
done at least two, the People's Liberation Army, they are 
relatively small documents. That doesn't make them invaluable, 
but they are not particularly informative or persuasive.
    The Chairman. Looking to the future with China, do you have 
future plans on meeting with them, discussing with them, as we 
speak?
    Admiral Keating. Chairman, we do. As an example, we have 
the Marine Consultative Committee, which just met last week. 
Our J5 Major General Conant was our representative there, in 
Shanghai. The meetings were not a waste of time, but there was 
little in terms of product that was delivered by the Chinese. 
And it can be something as simple as the agreement to undertake 
an incident at sea study. They chose to be not very cooperative 
on the several issues that we proposed.
    I intend to get back there after the Olympics, some time in 
the fall to early winter, for what will be my third visit. We 
have exchanges at various levels. Our senior enlisted leader, 
as I mentioned earlier, Jim Roy, will go to China in the, I 
think, near future.
    But to answer your question, Mr. Chairman, yes, sir, we do 
have engagement opportunities that are scheduled. We will 
pursue those vigorously at the Pacific Command. Our various 
component leaders, commanders, and their forces will visit 
China and engage with Chinese colleagues as frequently as the 
Chinese will allow us.
    The Chairman. Have you asked to visit with the second 
artillery group?
    Admiral Keating. I have. And I was--I did not get 
permission.
    The Chairman. That is interesting, because our 
congressional delegation did----
    Admiral Keating. Yes, sir.
    The Chairman [continuing]. This past August.
    Admiral Keating. I should go with you.
    The Chairman. Sir?
    Admiral Keating. I should go with you next time, Mr. 
Chairman.
    The Chairman. You are invited.
    Admiral Keating. Thank you, sir.
    The Chairman. Does anyone else have any questions for the 
Admiral or the General?
    Well, we can't thank you enough for being with us and for 
your invaluable service.
    Admiral, we look forward to seeing you again.
    General Bell, Godspeed.
    [Whereupon, at 4:02 p.m., the committee was adjourned.]

=======================================================================




                            A P P E N D I X

                             March 12, 2008

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 12, 2008

=======================================================================



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 12, 2008

=======================================================================

      
             RESPONSE TO QUESTION SUBMITTED BY MR. SKELTON

    Admiral Keating. DOD and USPACOM have not asked the Chinese 
military to present a budget report to the United Nations. However, 
both DOD and USPACOM have consistently encouraged China to increase the 
transparency of its defense budget, to include process, scope of 
funding, and intent. [See page 34.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. FORBES
    Admiral Keating. The Navy has two fully-funded programs of record 
to deal with this specific threat, with Initial Operational Capability 
(IOC) between 2011 and 2014. USPACOM supports these programs and 
timelines. We have not requested accelerated IOC.
    Should increased funding become available, the Navy would be best 
able to determine if an earlier IOC is possible. [See page 27.]
                                 ______
                                 
           RESPONSE TO QUESTION SUBMITTED BY MRS. GILLIBRAND
    Admiral Keating. USPACOM influences cyberspace specialist 
recruitments only indirectly. USPACOM defines the skill sets required 
for cyberspace operations to U.S. Strategic Command. The Services have 
the lead for recruiting. [See page 14.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. SESTAK
    Admiral Keating. There are no plans to build dry dock capability in 
Guam for submarine maintenance. [See page 11.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. CUMMINGS
    Admiral Keating. Within the USPACOM area of responsibility, 156 
assigned personnel speak Mandarin Chinese, at various levels of 
proficiency. [See page 23.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 12, 2008

=======================================================================


                    QUESTIONS SUBMITTED BY MR. REYES

    Mr. Reyes. The Terminal High Altitude Area Defense (THAAD) systems 
will provide the capability to counter the threat from short-, medium-, 
and intermediate-range ballistic missiles. The first THAAD fire unit is 
scheduled to enter service in 2009.
    What level of importance does PACOM attach to the timely deployment 
of THAAD into its theater?
    To what extent will THAAD and other BMD systems (e.g., PAC-3, SM-3) 
enable PACOM to successfully execute its warplanes?
    Is it true that PACOM would like to forward-deploy one of the four 
planned THAAD fire units to Guam?
    Admiral Keating. [The information referred to was not available at 
the time of printing.]

                                  <all>

</pre></body></html>
